 

                                        Office of Inspector General
                                       Corporation for National and
                                                Community Service




          AGREED-UPON PROCEDURES FOR CORPORATION
            GRANTS AWARDED TO THE UNIVERSITY OF
            SAN FRANCISCO - SCHOOL OF EDUCATION

                            OIG REPORT 10-08




                                Prepared by:

                     Mayer Hoffman McCann P.C.
                  Conrad Government Services Division
                      2301 Dupont Drive, Suite 200
                         Irvine, California 92612




    This report was issued to Corporation management on March 24, 2010. Under the
    laws and regulations governing audit follow-up, the Corporation is to make final
    management decisions on the report’s findings and recommendations no later than
    September 24, 2010 and complete its corrective actions by March 24, 2011.
    Consequently, the reported findings do not necessarily represent the final resolution
    of the issues presented.
                           OFFICE OF INSPECTOR GENERAL
                                         March 24, 2010

TO:            Lois Nembhard
               Acting Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       Report 10-08, Agreed-Upon Procedures for Corporation Grants Awarded to
               the University of San Francisco - School of Education (USF)

We contracted with the independent certified public accounting firm, Mayer Hoffman McCann
P.C. (MHM), to perform agreed-upon procedures in its review of a Corporation for National and
Community Service grant awarded to USF. The contract required the firm to conduct the
engagement in accordance with generally accepted government auditing standards.

Although we reviewed the report and the supporting audit documentation, MHM is responsible
for the attached report, dated March 24, 2010, and the conclusions expressed therein. Nothing
came to our attention during our reviews that would cause us to believe that MHM was not in
compliance with generally accepted government auditing standards.

Under the Corporation’s audit resolution policy, a final management decision, by the
Corporation, on the findings in this report is due by September 24, 2010. Notice of final action is
due by March 24, 2011.

If you have questions pertaining to this report, please call me at (202) 606-9360 or Thomas Chin
at (202) 606-9362.

Attachment

cc:   Dominic Daher, Director of Internal Audit and Tax Compliance, Office of the President,
        University of San Francisco
      Kristin McSwain, Chief of Program Operations
      William Anderson, Acting Chief Financial Officer
      Rocco Gaudio, Deputy Chief Financial Officer, for GFFM
      Claire Moreno, Audit Liaison, Office of Grants Management
      Bridgette Roy, Administrative Assistant, Office of the CFO
      Ronald E. Rolwes, CPA, CFE, Shareholder, Mayer Hoffman McCann P.C.,
        Conrad Government Services Division
      Claudio M. Chiuchiarelli, Chairman of the Board, Board of Trustees,
        University of San Francisco
      J. Malcolm Visbal, CPA, Chairman of the Audit Committee, Board of
        Trustees, University of San Francisco

                1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                    202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
 


           AGREED-UPON PROCEDURES FOR CORPORATION GRANTS AWARDED TO
              THE UNIVERSITY OF SAN FRANCISCO - SCHOOL OF EDUCATION

                                   Table of Contents

                                                                               Page

Executive Summary                                                               1

Independent Accountants’ Report on Applying Agreed-Upon Procedures              5

    Results – Costs Claimed                                                     6

    Consolidated Schedule of Claimed and Questioned Costs                       7

    Notes to Consolidated Schedule of Claimed and Questioned Costs              8

    Results – Compliance and Internal Control                                   9

Appendix A – University of San Francisco - School of Education’s Response to
             Draft Report
Appendix B – Corporation for National and Community Service’s Response to
             Draft Report
                                   EXECUTIVE SUMMARY




The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures on grant costs and compliance for Corporation-funded Federal assistance
provided to the University of San Francisco - School of Education (USF).

Results

As a result of applying our procedures, we questioned claimed Federal-share costs of
$192,972. We also questioned education awards and accrued interest payments related to
members’ service under the terms of the grant but funded outside of the grant of $33,759
and $3,593, respectively. A questioned cost is an alleged violation of provision of law,
regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds; or a finding that, at the time of testing, such cost is not
supported by adequate documentation. The detailed cost results of our agreed-upon
procedures are presented in the Consolidated Schedule of Claimed and Questioned Costs.

USF claimed total Federal costs of $1,022,042 from September 1, 2007, through September
30, 2009, under Grant Nos. 08NDHCA001 and 04NDHCA001. As a result of testing a
judgmentally selected sample of transactions, we questioned costs claimed, as shown in the
following table:

                                                     Federal   Education     Accrued
           Description of Questioned Costs            Share     Awards       Interest
      Grant No. 08NDHCA001
          Missing receipts for Mini-grant
                                                 $ 101,521     $        -     $         -
          awards claimed by members
          Missing receipt for costs claimed by
                                                       3,150            -               -
          one of its collaborative partners
      Grant No. 04NDHCA001
          Missing receipts for Mini-grant
                                                      88,301            -               -
          awards claimed by members
          Members did not meet minimum
          requirements to earn an education                -       33,759         3,593
          award
                                            Total $ 192,972    $   33,759    $    3,593

The amounts shown above were the exceptions found during our testing. Our testing did
not reveal any unsupported or unauthorized match costs.

AmeriCorps members, who successfully complete their terms of service, are eligible for
education awards and for payments of interest on student loans (accrued interest) that were

                                                 1
deferred while the members served. These costs are funded by the National Service Trust
and are not funded by Corporation grants and thus are not costs claimed by USF. As part of
our agreed-upon procedures, however, we determined the effect of audit findings on
eligibility for education awards and accrued interest payments. Using the same criteria
described above, we questioned education awards of $33,759 and accrued interest
payments of $3,593.

Details related to these questioned costs and awards appear in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures that follows.

The detailed results of our agreed-upon procedures revealed instances of non-compliance
with grant provisions, regulations, or Office of Management and Budget (OMB)
requirements, as shown below in the Compliance and Internal Control section. Issues
identified included:

      USF lacked effective procedures to monitor and evaluate USF’s collaborative
       partners’ performance, and it did not perform monitoring site visits in accordance with
       USF’s Partner Policy Manual;

      USF lacked receipts for Mini-grants and program costs claimed;

      Members did not always meet minimum program requirements to earn an education
       award and to have their accrued interest paid, the members received these
       unearned benefits;

      Non-Compliance with AmeriCorps provisions, including late submission of member
       forms; member’s timesheets not dated, and missing partner’s Operating Site
       Agreements.

We also compared the inception-to-date drawdown amounts with the amounts reported in
the most recent FSR and FFR under each grant and determined that the drawdown
amounts were reasonable.


Agreed-Upon-Procedures Scope

We performed our agreed-upon procedures during the period September 15, 2009, through
January 15, 2010. The agreed-upon procedures covered the allowability, allocability, and
reasonableness of financial transactions claimed for the following grants and periods:


   Grant Number           Program               Grant Period           Testing Period
  08NDHCA001         Professional Corps      09/01/08 – 08/31/11     09/01/08 – 09/30/09
  04NDHCA001         Professional Corps      09/01/05 – 08/31/08     09/01/07 – 08/31/08

The procedures we performed are based on the OIG’s agreed-upon-procedures program,
dated May 2009, as revised on October 20, 2009, and are included in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures section of this report.



                                              2
Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to National Direct Grantees,
such as USF, and other entities to assist in the creation of full-time and part-time national
and community service programs.

The University of San Francisco, which includes USF, was founded by the Society of Jesus
in 1855 as a California tax-exempt organization described in Section 501(c)(3) of the
Internal Revenue Code (IRC). The University of San Francisco is generally exempt from
Federal income taxes on related income pursuant to Section 501 (a) of the IRC but is
subject to Federal and state income tax on unrelated business income.

USF is one of the schools under the University and is comprised of educators and students.
It prepares students to serve as teachers, curriculum developers and supervisors,
administrators, higher education personnel, counselors, therapists, psychologists, private
consultants, as well as business managers and trainers.

USF operated the Professional Corps program called “The Teacher Education for the
Advancement of a Multicultural Society Teaching Fellowship Program (TEAMS).” The
program prepared diverse teachers for service in urban, public schools to increase the
academic success of all students. The TEAMS Program is a collaborative effort of
universities, colleges, and K-12 public school districts, led by USF to develop a highly
qualified teaching force that is reflective of the racial and ethnic diversity of students in urban
K-12 schools across the West Coast, with particular focus in the San Francisco Bay area,
Los Angeles, San Diego, and Seattle-Tacoma metropolitan areas. USF had 9 and 11
collaborative partners in program years (PY) 2007-2008 and 2008-2009, respectively. The
collaborative partners assisted USF in recruiting members into the Program and monitored
the members’ activities to ensure members were achieving the program objectives and were
in compliance with AmeriCorps requirements.

USF submitted semi-annual Financial Status Reports (FSR) for PY 2007-2008 and an
annual Federal Financial Report (FFR) for PY 2008-2009. The grantee portion of the
AmeriCorps costs consisted of program operating costs, such as personnel expenses, fringe
benefits, travel, contractual and consultant services, members training and administrative
costs. Payroll was performed in-house at USF. USF allocated administrative costs using a
pre-determined rate approved by the Department of Health and Human Services.

All member files, supporting documentation for program costs incurred at USF’s level, and
other program related information are maintained at USF.

As illustrated in the following table, USF received Federal grant funds of $1,795,782 for
various Corporation programs. USF claimed Federal costs of $1,022,042 during the period
September 1, 2007, through September 30, 2009, and we tested $421,921 of the Federal
costs claimed, as follows:




                                                3
                                              Funding    Claimed within
                                            Authorized   Testing Period     Tested
  08NDHCA001 – Professional Corps         $    617,518    $ 561,969       $  240,113
  04NDHCA001 – Professional Corps            1,178,264         460,073       181,808
        Total – Grants Administered       $ 1,795,782     $ 1,022,042     $ 421,921


Exit Conference

The contents of this report were discussed with the Corporation and USF at an exit
conference held in San Francisco, CA, on January 15, 2010. In addition, we provided a
draft of this report to USF and to the Corporation for comment on February 5, 2010. USF
generally agreed with the findings except it did not comment on questioned costs; its
responses to the findings in the draft report are included in Appendix A and summarized
after each finding. The Corporation did not respond to the individual findings and
recommendations. Its response is in Appendix B.




                                          4
 




              Conrad Government Services Division 
 


Inspector General
Corporation for National and Community Service


                            INDEPENDENT ACCOUNTANTS’ REPORT ON
                             APPLYING AGREED-UPON PROCEDURES

We have performed the procedures described below for costs claimed between September 1,
2007, and September 30, 2009. The procedures were agreed to by the OIG solely to assist it
in grant-cost and compliance testing of Corporation-funded Federal assistance provided to
University of San Francisco - School of Education (USF) for the awards and periods listed
below, with a combined award period of September 1, 2005 through August 31, 2011. USF
management is responsible for the accounting records. This agreed-upon procedures
engagement was performed in accordance with attestation standards established by the
American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the
OIG. Consequently, we make no representation regarding the sufficiency of the procedures
described below, either for the purpose for which this report has been requested or any other
purpose.


     Grant Number          Program              Grant Period          Testing Period
    08NDHCA001        Professional Corps     09/01/08 – 08/31/11    09/01/08 – 09/30/09
    04NDHCA001        Professional Corps     09/01/05 – 08/31/08    09/01/07 – 08/31/08

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on management’s assertions. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

The procedures that we performed included obtaining an understanding of USF and its
partners’ monitoring processes; reconciling Federal costs claimed and match costs to the
accounting systems of USF and of its partners; reviewing member files to verify that the
records supported member eligibility to serve and allowability of education awards; and
testing compliance of USF with selected grant provisions and award terms and conditions. In
addition, we interviewed 28 members and 14 supervisors to ensure they were in compliance
with grant provisions and application requirements.

We also tested claimed Federal costs and match costs of USF and its partners to ensure:
(i) Proper recording of the AmeriCorps grants; (ii) Matching requirements were met; and
(iii) Costs were allowable and supported in accordance with applicable regulations, OMB
circulars, grant provisions, and award terms and conditions.

                                             5
 


                                Results – Costs Claimed

The results of cost testing are summarized in the Consolidated Schedule of Claimed and
Questioned Costs that follows. The schedule also identifies instances of questioned
education awards and related accrued interest payments. These awards and payments are
funded by the National Service Trust, not the Corporation’s grants, and accordingly are not
included in claimed costs. As part of our agreed-upon procedures, however, we determined
the effect of member service hour data and eligibility exceptions on these awards.




                                            6
 


           AGREED-UPON PROCEDURES FOR CORPORATION GRANTS AWARDED TO
                UNIVERSITY OF SAN FRANCISCO - SCHOOL OF EDUCATION

                Consolidated Schedule of Claimed and Questioned Costs

                     Costs Claimed                       Education        Accrued
                     Within Testing   Federal Costs       Awards          Interest
    Grant Number         Period        Questioned       Questioned       Questioned
    08NDHCA001       $ 561,969        $ 104,671         $       -         $      -
    04NDHCA001          460,073           88,301         33,759             3,593
        Total        $ 1,022,042      $ 192,972         $ 33,759           $ 3,593

The Federal costs, education awards, and accrued interest payments questioned under the
two grants reference resulted from:

1. Lack of receipts and source documentation for costs of Mini-grants claimed. Total
   questioned costs, including 5 percent administrative costs applied, are $101,521 and
   $88,301 for Grant nos. 08NDHCA001 and 04NDHCA001, respectively (see Finding 2).

2. Lack of receipts and source documentation for recruiting costs claimed by one Partner
   under the 08NDHCA001 grant. Total questioned costs, including administrative costs
   applied, are $3,150 (see Finding 2).

3. Nine members tested under the 04NDHCA001 grant, who had received education
   awards, did not meet the minimum requirements of the program to receive education
   awards. These members did not serve 1,700 hours, or their hours for a partial award
   were overstated, or they served 1,700 hours but did not meet specific requirements of
   USF’s program. Total education award costs and accrued interest payments questioned
   are $33,759 and $3,593, respectively (see Finding 3).




                                            7
 


            Notes to Consolidated Schedule of Claimed and Questioned Costs

Basis of Accounting

The accompanying schedule has been prepared to comply with provisions of the grant
agreements between the Corporation and USF. The information presented in the schedule
has been prepared from reports submitted by USF to the Corporation and accounting records
of USF. The basis of accounting used in the preparation of these reports differs from
accounting principles generally accepted in the United States of America as discussed below.

Equipment

No equipment was purchased and claimed under Federal or match share of costs for the
period within our review scope.

Inventory

Minor materials and supplies were charged to expense during the period of purchase.




                                             8
 


                           Results - Compliance and Internal Control

The results of our agreed-upon procedures revealed instances of non-compliance with grant
provisions, regulations, or OMB requirements, as shown below:

Finding 1. USF lacked effective procedures to monitor and evaluate USF’s
           collaborative partners’ performance, and it did not perform monitoring site
           visits in accordance with USF’s Partner Policy Manual.

USF did not have effective procedures to monitor and evaluate its partners. USF did not
have formal monitoring tools in PY 2007-2008, but developed monitoring tools for PY 2008-
2009. These recently developed tools lacked a provision for formal monitoring of financial
management systems, including reviews of A-133 Single Audits for partners who received
sub-awards. The tools also lacked a formal assessment evaluation process to evaluate
whether its partners had a high, moderate, or low risk with regard to performing successfully
in the AmeriCorps program. In PY 2008-2009, there were three partners who received sub-
awards including National University, California State University Northridge, and California
State University Dominguez Hills.

The conditions were due to USF personnel’s lack of familiarity with AmeriCorps provisions
and applicable regulations.

In addition, USF did not perform the annual monitoring site visits on 8 out of its 11 partners as
required under USF Partner’s Manual for PY 2008-2009 because, as USF advised the
auditor, it did not adequately budget for travel costs.

Ineffective procedures to monitor and evaluate collaborative partners could result in non-
compliance with program requirements and prevent USF from achieving program
performances objectives.

Criteria

45 C.F.R. §2543.51 Monitoring and reporting program performance, states:

           (a) Recipients are responsible for managing and monitoring each project,
           program, subaward, function or activity supported by the award. Recipients
           shall monitor subawards to ensure subrecipients have met the audit
           requirements as delineated in Section §2543.26.

2007 AmeriCorps provisions, Section V.A. Responsibilities under Grant Administration, states:

           1. Accountability of Grantee. The grantee has full fiscal and programmatic
           responsibility for managing all aspects of the grant and grant-supported
           activities, subject to the oversight of the Corporation. The grantee is
           accountable to the Corporation for its operation of the AmeriCorps Program
           and the use of Corporation grant funds. The grantee must expend grant funds
           in a judicious and reasonable manner, and it must record accurately the
           service activities and outcomes achieved under the grant. Although grantees
           are encouraged to seek the advice and opinion of the Corporation on special
           problems that may arise, such advice does not diminish the grantee's


                                               9
 


       responsibility for making sound judgments and does not mean that the
       responsibility for operating decisions has shifted to the Corporation.


In addition, the 2008 USF Partner Policy Manual (developed by USF to monitor its partners),
Appendix, TEAMS Partner Site Monitoring Plan, states:

          Conduct at least two Partner Meetings for training, troubleshooting
          Conduct at least one annual Partner site visit, including meeting with
           Partner site representatives, Pedagogical seminar observation, interviews
           with Fellows
          Complete Site Monitoring Tool within one week of site visit (send copy to
           Partner site)
          Follow up conversation with Partner Site on issues to be resolved
          Review Partner Site performance and recommend changes and slot
           allotment for following year

Recommendations

We recommend that the Corporation ensure USF:

    1a. Familiarizes itself with AmeriCorps provisions and regulations and develops effective
        procedures to monitor its partners, which includes an adequate financial
        management systems review of partners who received sub-awards, and the
        development of necessary assessment evaluation tools; and

    1b. Perform all monitoring site visits as required by USF’s manual.

University of San Francisco - School of Education’s Response

    1a. USF indicated that it had implemented immediate corrective action to rectify the
        University's subrecipient monitoring practices once the matter was brought to its
        attention. USF indicated that, as of October 30, 2009, it had adopted a formal written
        Subaward Policy and Procedures, which it had begun implementing. The Subaward
        Policy was reviewed by the University's external grant counsel, and the University
        had been advised by its counsel that this policy is compliant with relevant Federal
        statutes, regulations, OMB Circulars, and AmeriCorps provisions and regulations.

    1b. USF will perform all necessary monitoring site visits for its subawardees.
        Additionally, USF intends to continue its risk-based monitoring practices for its
        subawardee partner schools, and it has recently adopted similar risk-based
        monitoring practices for its non-subrecipient partner schools.

Independent Accountants’ Comment

Accountants concur with USF corrective action plans. The Corporation should follow up with
USF to ensure the actions have been implemented and are adequate.




                                             10
 


Finding 2.      USF lacked receipts for Mini-grants and program costs claimed.

Our testing showed that USF did not have receipts to support the Mini-grants and other
program costs claimed, totaling $192,972.

The Mini-grant program provides funding for approximately 200 projects that demonstrate the
7 elements of successful service-learning. Members apply for grant funding ranging from
$300-$1,000 to use for supplies and materials for their projects. The Mini-grant program was
started in PY 2007-08 and is a new component of TEAMS to help members develop their
service-learning projects more fully. Projects that are selected for funding are those that
engage students throughout the project on matters such as identifying community needs and
strategies to address those needs. Students are also expected to identify problems in
implementing their projects, and then reflecting upon and evaluating the projects. Through
service-learning projects, members engage students in their own learning process while
contributing to their schools, the families their schools serve, and the broader community
beyond their schools. Upon completion of each project, USF required the members to submit
a final summary report that showed the projects achievements or outcomes.

However, USF did not enforce its procedures for the recipients of Mini-grants to submit the
original receipts to USF for Federal costs claimed on the service learning projects performed.
As a result of the lack of supporting receipts, there is no assurance that the funds were spent
as intended, although there is evidence that the projects were completed. Total Federal
costs and administrative costs questioned related to Mini-grants are, as follows:

                         Federal Costs       Administrative Costs     Total Questioned
    Grant Number          Questioned          Questioned (5%)        Costs for Mini-grants
    08NDHCA001             $ 96,687                 $ 4,834                $ 101,521
    04NDHCA001                  84,096                   4,205                 88,301
        Total               $ 180,783                $   9,039              $ 189,822

USF indicated that to have the recipients pay for the materials and supplies in advance would
cause financial burden on the recipients since many of the recipients might not have the
financial resources to pay for the supplies and materials. Instead, USF deviated from its own
procedures that required Mini-grant recipients to submit receipts. It treated these costs as an
advance under the Mini-grant program to the recipients, not to exceed $1,000 per project,
and issued an IRS Form 1099 – Miscellaneous Income (Form 1099) for the advances.
Without original receipts, we were unable to determine if the costs were actually incurred and
spent on the program. Form 1099 should not be issued to recipients who incur and claim
Federal funds because the recipients should be accounting for these costs to the
Government. To account to the Internal Revenue Service is an unnecessary burden on the
member.

In addition to the costs questioned for Mini-grants, one of USF’s partners claimed $3,000 for
Federal costs of recruiting members but lacked receipts for these costs. This partner was
able to provide source documentation on other costs claimed that we tested. The condition
was due to USF not requiring it partners to submit source documentation and not reviewing
the source documentation for costs claimed. As a result, we questioned the unsupported
costs totaling $3,150 which included administrative costs of 5 percent.



                                              11
 


Criteria

45 C.F.R. §2543.21, Standards for financial management systems, states:

           (a) Federal awarding agencies shall require recipients to relate financial data
           to performance data and develop unit cost information whenever practical.

           (b) Recipients' financial management systems shall provide for the following:

           (1) Accurate, current and complete disclosure of the financial results of each
           federally-sponsored project or program in accordance with the reporting
           requirements set forth in §2543.51. If a Federal awarding agency requires
           reporting on an accrual basis from a recipient that maintains its records on
           other than an accrual basis, the recipient shall not be required to establish an
           accrual accounting system. These recipients may develop such accrual data
           for its reports on the basis of an analysis of the documentation on hand.

           (2) Records that identify adequately the source and application of funds for
           federally-sponsored activities.   These records shall contain information
           pertaining to Federal awards, authorizations, obligations, unobligated balances,
           assets, outlays, income and interest…

                                           *       *      *

           (6) Written procedures for determining the reasonableness, allocability and
           allowability of costs in accordance with the provisions of the applicable Federal
           cost principles and the terms and conditions of the award.

           (7) Accounting records including cost accounting records that are supported by
           source documentation.

Notice of Grant Award to USF, Terms of Acceptance, states in part:

           The Grantee agrees to administer the funded Program in accordance with the
           approved Grant application and budget(s), supporting documents, and other
           representations made in support of the approved Grant application.

The above criterion, therefore, considers the representation made in the request for a Mini-
grant below.

USF’s Service Learning Mini-grant Request for Proposal, Funding Requirements, states in
part, “Grantees must keep original receipts and submit them upon request.”

Recommendations

We recommend that the Corporation:

    2a. Resolve the questioned costs and recover any disallowed costs and the applicable
        administrative costs;



                                                  12
 


    2b. Ensure USF adheres to its existing policies or creates policies and procedures to
        obtain all proper source documentation to support Federal funds claimed; and

    2c. Ensure USF discontinues issuing a Form 1099 to members and other recipients who
        incur and claim costs to Federal funds.

University of San Francisco - School of Education’s Response

USF believes the Corporation was aware of, and had approved, USF’s plan to issue Mini-
grants as stipends, rather than as part of a reimbursement process. In lieu of actual receipts,
USF was able to provide other source documentation for the Mini-grant projects completed,
which include project proposals, final project results, etc. Should the Corporation find it
necessary, USF can provide all the documentation on how the Mini-grant funds were spent.

USF indicated it has changed its policies and procedures with respect to the mini-grant
program. Going forward, USF will require Fellows to submit receipts for any costs incurred in
relation to their service learning projects, and the University will reimburse Fellows within ten
business days from the date of submission, which is the University's standard disbursement
cycle processing time.

However, USF believes that this change will unfortunately place a significant burden on the
Fellows, who will have to front their own money in order to carry out their service learning
projects and then wait for reimbursement from the University. USF believes the foregoing
change in policy will likely lead to fewer members applying for service learning mini-grants.

Finally, going forward, USF will not issue IRS Forms 1099 since any mini-grant funds will be
disbursed in a manner consistent with the accountable plan rules, pursuant to Treasury
Regulation Section 1.62-2(c)(4).

Independent Accountants’ Comment

Although USF indicated that it has source documentation to support that the Mini-grant
projects were completed, it has no evidence that the funds provided were fully spent and
spent as intended. USF is in violation of the CFR as well as the application requirements for
Mini-grants. Although the projects may have been completed, without receipts, support for
the expenditure of Federal funds cannot be fully verified. Accordingly, the Corporation needs
to recoup the unsupported costs. USF’s concern about the advance of funds is misplaced.
Accounting for what was spent and claimed to the grant is the issue.

We otherwise concur with USF’s stated corrective action plans and recommend that the
Corporation follow up with USF to ensure they have been implemented.


Finding 3.     Members did not always meet minimum program requirements to earn an
               education award and to have their accrued interest paid, the members
               received these unearned benefits.

Of the 180 members whose timesheets were tested, 6 members did not meet the 1,700-hour
minimum requirement for a full education award. In addition, two members tested were
awarded a partial award as a result of compelling personal circumstances, but timesheets
tested did not have sufficient hours to support the total hours certified on the exit form.

                                               13
 



                             Hours per Exit          Time Sheet     Education Award
             Member #            Form                  Hours         Questioned ($)
           Full Award
                   1                1,701.00          1,331.00             4,725
                   2                1,814.00          1,662.00             4,725
                   3                1,761.00          1,600.00             4,725
                   4                1,977.00          1,599.00             4,725
                   5                1,773.00          1,608.00             4,725
                   6                1,768.50          1,562.50             4,725
           Partial Award
                   7                1,467.00          1,347.00               334
                   8                1,591.00          1,465.00               350

USF indicated that members' timesheets were possibly misplaced due to the high volume of
member files processed. As a result, $29,034 of Education Award costs and $3,593 of
accrued interest are questioned.

In addition, one member served the 1,700 hours minimum requirement but failed to attend all
the pedagogical seminars as required by the program. USF granted the member a partial
award on the exit form and in Web Based Reporting System (WBRS) instead of exiting the
member without an award. Corporation records show a full education award was approved
August 1, 2008. This approved award occurred because USF was not familiar with the
AmeriCorps provisions and assumed that even when a member did not meet all of the
Grantee’s set requirements but met the minimum service hours, he/she could still be eligible
for a partial education award. The total questioned award for the member is $4,725.

Criteria

AmeriCorps 2007 Grant Provisions, Section IV AmeriCorps Special Provisions, Sub Section
J, Post Service Education Awards, states in part:

           In order to receive a full education award, a member must perform the
           minimum hours of service as required by the Corporation and successfully
           complete the program requirements as defined by the Program. For example,
           if successful completion of a full-time program requires 1,800 service hours,
           members in that particular program are not eligible for an education award
           simply upon completion of 1,700 hours.

Member Contract, Section IV, Fellowship Role Description (emphasis added), states:

           The Member- will serve students and the school community during the
           academic school year at Program member schools. Specifically, the Member
           will:
           (1) Provide teaching or counseling services;
           (2) Implement a service learning project;
           (3) Attend all pedagogical seminars in his/her region; and
           (4) Complete all required forms and evaluations




                                                14
 


Recommendations

We recommend that the Corporation:

    3a. Disallow and, if already used, recover education awards and accrued interest on
        awards made to members with questioned education awards;

    3b. Ensure USF develops adequate controls and procedures to safeguard program
        documentation, especially members’ timesheets; and

    3c. Provide guidance to USF with respect to AmeriCorps provisions and requirements
        for awarding partial education awards.

University of San Francisco - School of Education’ Response

    3a. USF indicated that it has adequate control procedures for timesheet submissions
        and approvals and believes that the missing timesheets were in fact submitted to and
        reviewed by USF for approval before being entered into WBRS. Specifically, USF
        stated: “It is clear, based on the timesheet entry and approval audit trail available in
        WBRS, that at least two University employees saw and verified the timesheets in
        question which are now missing.” USF believed the missing timesheets were
        isolated instances rather than a systematic problem. However, USF was unclear
        how the missing timesheets became misplaced. USF indicated it has requested the
        Fellows, whose timesheets were missing, to sign a recertification form for the
        missing hours.

    3b. USF engaged a technology consultant to develop an electronic timekeeping system
        to provide an accurate accounting of members’ time and ensure hard copy as well as
        electronic back-up exists. The electronic timekeeping system has been implemented
        in program year 2009-2010.

    3c. USF is pending further clarification from the Corporation regarding partial education
        award requirements. USF indicated it will discuss this finding further with the
        Corporation during the resolution process.

Independent Accountants’ Comment

We verified that USF’s procedures for timesheet submissions and approvals were adequate.
However, having the Fellows recertify the missing hours is not a proper corrective action plan
since the members might not accurately recall the actual hours they served a few years ago.
USF’s statement that information from timesheets, which cannot be found, was nonetheless
properly entered, cannot be substantiated.

We concur with USF’s corrective action plan to implement an electronic timekeeping system
and recommend the Corporation follow up with USF to ensure that the plan has been
properly implemented. In addition, we recommend that the Corporation test the system to
ensure it can properly track Fellows hours and complies with the CFR as well as AmeriCorps
requirements.




                                              15
 


We also recommend the Corporation discuss and provide further clarification to USF
regarding the partial education award requirements to assist it in properly handling awards in
the current program year.

Finding 4.      Non-Compliance with AmeriCorps provisions, including late submission
                of member forms; member’s timesheets not dated, and missing partner’s
                Operating Site Agreements.

Late submissions of member forms

Our testing found that the following required forms were submitted late (ranging from 1 to 302
days late):

          94 of 180 Enrollment Forms (ranging from 2 to 97 days late);
          6 of 7 Change-of-Status Forms (ranging from 60 to 302 days late); and
          72 of 180 Member Exit Forms (ranging from 1 to 107 days late).

According to the Grantee, the late submission of member related forms was due to various
factors including: (1) technical difficulties in WBRS; (2) partners and members did not submit
required documents on-time from the time of enrollment; and (3) the transfer from WBRS to
My AmeriCorps Portal delayed the submission process.

Criteria

2007 AmeriCorps Special Provisions, Section IV.N.2. AmeriCorps Member-Related Forms,
states:

           The grantee is required to submit the following documents to the National
           Service Trust at the Corporation on forms provided by the Corporation.
           Grantees and sub-grantees may use WBRS to submit these forms
           electronically. Programs using WBRS must also maintain hard copies of the
           forms.

           a. Enrollment Forms. Enrollment forms must be submitted no later than 30
           days after a member is enrolled.

           b. Change of Status Forms. Member Change of Status Forms must be
           submitted no later than 30 days after a member’s status is changed. By
           forwarding Member Change of Status Forms to the Corporation, State
           Commissions and Parent Organizations signal their approval of the change.

           c. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-Service
           Forms must be submitted no later than 30 days after a member exits the
           program or finishes his/her term of service.

Member’s timesheets not dated

None of the 180 members’ timesheets tested were dated. USF indicated that since all
timesheets are date-stamped when they were received by USF, timesheets would not be
required to be dated. However, AmeriCorps requires member’s timesheets to be dated when
signed.

                                               16
 



Criteria

AmeriCorps 2007 Grant Provisions, Section IV AmeriCorps Special Provisions, Sub Section
C - Member Enrollment, states in part:

           The grantee must keep time and attendance records on all AmeriCorps
           members in order to document their eligibility for in-service and post service
           benefits. Time and attendance records must be signed and dated both by the
           member and by an individual with oversight responsibilities for the member.

Missing Partner’s Operating Site Agreements

USF was unable to provide the Operating Site Agreements for 3 out of 9 and 5 out of 11 of its
collaborative partners for PYs 2008-2009 and 2007-2008, respectively. USF indicated that
the agreements may have been misplaced and neither USF nor the Partners were able to
locate the signed agreements. As a result, USF unnecessarily increases the risk of
misunderstanding between itself and those partners. With both parties missing the
agreements, it is likely the agreements were not prepared.

Criteria

45 C.F.R. §2543.53 Retention and access requirements for records, states:

           (a) This section sets forth requirements for record retention and access to
           records for awards to recipients. Federal awarding agencies shall not impose
           any other record retention or access requirements upon recipients.

           (b) Financial records, supporting documents, statistical records, and all other
           records pertinent to an award shall be retained for a period of three years from
           the date of submission of the final expenditure report or, for awards that are
           renewed quarterly or annually, from the date of the submission of the quarterly
           or annual financial report, as authorized by the Federal awarding agency.

Recommendations

We recommend that the Corporation:

    4a. Ensure that USF: (1) develops alternative procedures for updating members’ status
        in My AmeriCorps Portal or other applicable systems, (2) strengthens procedures for
        submission of documentation during the enrollment process, and (3) uses alternative
        means to submit member’s forms when technical problems arise;

    4b. Instruct USF to develop policies and procedures requiring member’s to date
        timesheets when they are signed; and

    4c. Ensure USF prepares memorandums of agreements for its partners and enforces
        record retention policies.




                                                 17
 


University of San Francisco - School of Education’s Response

USF indicated it will strictly enforce the 30-day rule and plans to issue additional
commitments in order to make up for the prospective Fellows who do not submit their
enrollment paperwork in a timely fashion.

USF indicated the electronic timekeeping system discussed in the response to Finding 3
requires the Fellows, along with their supervisors, to sign and date the Fellows’ timesheets.

USF will adhere to its record retention policies and ensure Memorandums of Understanding
are in place for all partners.

Independent Accountants’ Comment

We concur with USF’s stated corrective action plans. The Corporation should follow up with
USF to ensure its actions have been implemented.


This report is intended for the information and use of the Office of Inspector General,
Corporation management, University of San Francisco - School of Education, and the U.S.
Congress. However, this report is a matter of public record and its distribution is not limited.




Irvine, California
March 24, 2010




                                              18
                       APPENDIX A

UNIVERSITY OF SAN FRANCISCO - SCHOOL OF EDUCATION RESPONSE
                      TO DRAFT REPORT
       UNIVERSITY of
                    +USF                                                  Office of Inle .... al Audit
                                                                          and Tax Compliance
       SAN FRANCISCO                                                      2130 Fli li oll Slree l
                                                                          t'HIl Fra ll cisco. C1\ 9-+" 7- 1080

                                                                          TEL -+1 5 -+ :22-5 12-+
                                                                          FA.~ -+1 5 -+22-2058




                                            March 5, 2010

Mr. Stuart Axenfeld
Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW, Suite 830
Washington, DC 20525

      RE: University of San Francisco's Response to the OIG's Draft Report

Dear Mr. Axenfeld:

On behalf of the University of San Francisco I am submitting the attached response to the Office
of Inspector General's draft report on Agreed- Upon Procedures for Corporation Grants
Awarded to the University ofSan Francisco.

If you have questions or require any clarifications, please feel free to contact me.

Kindest regards,


Dominic L. Daher, MAcc, JD, LLM in Taxation lsi
Director of Internal Audit and Tax Compliance

Enclosure

cc:   Ronald Rolwes, CPA, CFE, Shareholder, Mayer Hoffman McCann P.C.
      Jim Elmore, Audit Manager, Office of Inspector General
      Claire Moreno, Audit Liaison, Corporation for National and Community Service
      Claudio Chiuchiarelli, Chairman of the Board, University of San Francisco
      Fr. Steve Privett, S.J., President, University of San Francisco
      Charlie Cross, Vice President for Business and Finance, University of San Francisco
      Mary Rose Fernandez, Director of TEAMS , University of San Francisco




      ) c$I ,il Edlll'll liOIl Si"ce 1155
 UNIVERSITY OF SAN FRANCISCO'S RESPONSE TO THE
OFFICE OF INSPECTOR GENERAL’S DRAFT REPORT ON
AGREED-UPON PROCEDURES FOR CORPORATION GRANTS
  AWARDED TO THE UNIVERSITY OF SAN FRANCISCO




                      Prepared by:




      Dominic L. Daher, MAcc, JD, LLM in Taxation

      Director of Internal Audit and Tax Compliance

               University of San Francisco



                       Submitted:

                     March 5, 2010
Finding 1. USF lacked effective procedures to monitor and evaluate USF’s
collaborative partners’ performance, and it did not perform monitoring site visits in
accordance with the USF Partner Policy Manual.

Recommendations:

We recommend that the Corporation ensure USF:

1a.    Familiarizes itself with AmeriCorps provisions and regulations and develops
       effective procedures to monitor its partners, which includes an adequate financial
       management systems review of partners who received sub-awards, and the
       development of necessary assessment evaluation tools; and

1b.    Perform all monitoring site visits as required by USF’s manual.

University of San Francisco's Response:

1a.
Aside from the AmeriCorps grants which are the subject of this report, the University of
San Francisco does not currently have any other federal grants which involve
subrecipients. Once this issue was brought to the University's attention, immediate
appropriate action was taken to rectify the University's subrecipient monitoring practices.
The University seeks to be compliant with all applicable AmeriCorps provisions and
regulations. In furtherance of this objective, as of October 30, 2009, the University
adopted a formal written Subaward Policy and Procedures which it has begun
implementing. This Subaward Policy was reviewed by the University's external grant
counsel, and the University has been advised by its counsel this policy is compliant with
relevant federal statutes, regulations, OMB Circulars, and AmeriCorps provisions and
regulations.

1b.
The University has two different types of partners. Some of the University's partners are
subawardees; where a partner school is a subawardee, it (not the University of San
Francisco) is expected to plan and implement the pedagogical seminars for their site in
accordance with the University's TEAMS Program (the Program) seminar framework.
For those partners which are subawardees, the University performed monitoring site
visits for them during the 2008-09 Program year.

Other partners are not subawardees because they received no funding from the
University's AmeriCorps grants and did not perform any significant work on behalf of the
University's Program. Where a partner school is not a subawardee, the University (not
the partner school) performs all necessary programming, member recruitment and
management, and training (including orientation and pedagogical seminars).




                                            2
The University will continue to perform all necessary monitoring site visits for its
subawardees. Additionally, the University intends to continue its risk-based monitoring
practices for its subawardee partner schools, and it has recently adopted similar risk-
based monitoring practices for its non-subrecipient partner schools.

Finding 2. USF lacked receipts for Mini-grants and program costs claimed.

Recommendations:

We recommend that the Corporation:

2a.    Resolve the questioned costs and recover any disallowed costs and the applicable
       administrative costs;

2b.    Ensure USF adheres to its existing policies or created policies and procedures to
       obtain all proper source documentation to support Federal funds claimed; and

2c.    Ensure USF discontinues issuing a Form 1099 to members and other recipients
       who incur and claim costs to Federal funds.

University of San Francisco's Response:

2a.-2c.
The University believes the Corporation knew and approved of the University's plan to
issue service learning mini-grants as stipends, rather than as part of a reimbursement
process. In fact, in the University's application for both 2007 and 2008, the service
learning mini-grants were clearly described as “stipends.”

As was articulated initially to the Corporation, and again to the auditors retained by the
OIG during the course of their fieldwork and at the Exit Conference, the University's
intention in issuing stipends was to allow for grant funds to be disbursed to AmeriCorps
participants (Fellows) for their service learning projects as quickly as possible without the
Fellows, who are teaching in under-resourced schools, and who are themselves under-
resourced, having to front their own personal funds and wait for reimbursement from the
University, which typically takes up to ten business days.

More specifically, in the Grant Negotiation letter (sent to the University via electronic
mail) from the Corporation dated April 23, 2007, there was no question or point of
clarification requested by the Corporation with respect to the mini-grant stipends, despite
the fact that the letter asks for clarification with respect to several other items for the
grant year in question. And, in the 2008 AC National Grant Clarification letter (sent to
the University via electronic mail) dated March 26, 2008, the Corporation specifically
acknowledged the mini-grants would be delivered to the Fellows in the form of stipends:
“Please insure that the narrative for service learning mini-grant stipends provides
sufficient detail to document how these stipends are eligible/necessary and how amounts


                                             3
and beneficiaries are clearly determined and distributed based on a written plan or
manual.” (Emphasis added.)

The University issued IRS Forms 1099 (as required under applicable provisions of the
Internal Revenue Code and Treasury Regulations promulgated thereunder) to those
Fellows who received mini-grants because the funds were disbursed as stipends rather
than as reimbursements under an "accountable plan." Under Section 62(c) of the Internal
Revenue Code an accountable plan is one which requires participants (in this case the
Fellows):

       1. Have paid or incurred otherwise deductible expenses;
       2. Substantiate reimbursed expenses (typically through the production of
          receipts); and
       3. Return any amount in excess of the substantiated expenditures.

Pursuant to Treasury Regulation Section 1.162-2(c)(3), all other reimbursement (or
payment) plans are considered nonaccountable plans; furthermore, under Treasury
Regulation Section 1.62-2(c)(5), amounts treated as paid under a nonaccountable plan are
required to be reported as taxable income on either IRS Form 1099 or W-2 (as
appropriate). Accordingly, the University did not collect receipts from the Fellows after
the completion of the service learning projects because the mini-grants were treated as
stipends.

Prior to any of the Fellows receiving any mini-grant funds, the Fellows completed a
written proposal, including a detailed budget for how they would spend the funds (if
awarded), and the Fellows secured written approval from the principal at their school. So
for example, a Fellow might plant a garden to feed the local homeless population as a
service learning project, and that Fellow might need to purchase soil, plants, gardening
tools, etc. in order to carry out that service learning project.

Furthermore, the Fellows also completed a final project such as a paper, presentation,
website, photos, DVDs, videos, or other work product which described their experience
in completing the service learning project for which they received funding under the
mini-grant program; an example, of a website created by one of the Fellows who received
a mini-grant can be found at: http://skyline.test.jinkdesign.com/?page_id=154. The
University would be happy to share with the Corporation any or all of the foregoing
documentation in order to document how the service learning mini-grant funds were
spent.

Effective immediately, the University has changed its policies and procedures with
respect to the mini-grant program. Going forward, the University will require Fellows to
submit receipts for any costs incurred in relation to their service learning projects, and the
University will reimburse Fellows within ten business days from the date of submission,
which is the University's standard disbursement cycle processing time. This will
unfortunately be a significant burden on the Fellows who will have to front their own


                                              4
money in order to carry out their service learning projects and then wait for
reimbursement from the University. The University believes the foregoing change in
policy will likely lead to less members applying for service learning mini-grants.
Whereas going forward any mini-grant funds will be disbursed in a manner consistent
with the accountable plan rules, pursuant to Treasury Regulation Section 1.62-2(c)(4) the
University will not be required to issue IRS Forms 1099 with respect to such payments.

Finding 3. Members did not always meet minimum program requirement to earn
an education award and to have their accrued interest paid, the members received
these unearned benefits.

Recommendation:

3a.    Disallow and, if already used, recover education awards and accrued
       interest on awards made to members with questioned education awards;

3b.    Ensure USF develops adequate controls and procedures to safeguard program
       documentation, especially members’ timesheets; and

3c.    Provide guidance to USF with respect to AmeriCorps provisions and
       requirements for awarding partial education awards.

University of San Francisco's Response:

3a.
The University acknowledges there were a small number of timesheets missing from
Fellows' files. In all of the cases identified by the auditors one monthly timesheet was
missing from each Fellow's file in question, and this one missing timesheet lead to these
Fellows failing to meet the required 1,700 documented hours of required service.

The University investigated the audit trail available in WBRS for these missing
timesheets. It is clear, based on the timesheet entry and approval audit trail available in
WBRS, that at least two University employees saw and verified the timesheets in
question which are now missing. The University's procedure (at all relevant times
encompassed by this report) was to date stamp all timesheets when they were received;
thereafter a University employee would enter the data into WBRS; and in an effort to
promote proper segregation of duties and a strong system of internal controls the
employee's supervisor, the Education Awards Administrator, would approve the time
input into WBRS based on her personal review of the relevant actual paper timesheets.
During the University's review of the audit trail available in WBRS, all of the Fellows'
timesheets in question were noted to have been approved within four days of each other,
which is indicative of a one-time error rather than a systematic problem; unfortunately, it
is not clear how the missing timesheets became misplaced.




                                            5
Nevertheless, based on the aforementioned approval process, it seems exceedingly likely
the missing timesheets were submitted to the University otherwise the hours related to
those timesheets would not have been entered into WBRS. As an alternative source of
certification of hours, the University has asked the Fellows with missing timesheets to
sign a Recertification Form for the hours they previously submitted on the missing
timesheets; at this time, the University has received signed Recertification Forms from all
but one of the Fellows with missing timesheets.

3b.
In the fall of 2009 the University engaged a technology consultant, Forcebrain.com,
which developed an electronic timekeeping system that will address the issue of
safeguarding program documentation, particularly Fellows’ timesheets. For the 2009-
2010 Program year, the University has launched this electronic timekeeping system that
not only provides an accurate accounting of members’ time, but it also ensures a hard-
copy (as well as an electronic) back-up exists.

3c.
The University is currently obtaining further information with respect to this finding, and
it will discuss this finding more completely with the Corporation during the Resolution
Phase.

Finding 4. Non-Compliance with AmeriCorps provisions, including late submission
of member forms, member’s timesheets not dated, and missing partner’s Operating
Site Agreements.

Recommendations:

4a.    Ensure that USF: (1) develops alternative procedures for updating members’
       status in My AmeriCorps Portal or other applicable systems, (2) strengthens
       procedures for submission of documentation during the enrollment process, and
       (3) uses alternative means to submit members’ forms when technical problems
       arise;

4b.    Instruct USF to develop policies and procedures requiring members to date
       timesheets when they are signed; and

4c.    Ensure USF prepares memorandums of agreements for its partners and enforces
       record retention policies.

University of San Francisco's Response:

4a.
The University acknowledges that timely reporting of Fellows’ status has proven to be
problematic. For the past few years since the thirty day rule has been in effect, the
University has continuously improved its systems to assist Fellows in submitting required


                                            6
paperwork in a timely manner, such as establishing earlier deadlines, making all forms
available both in print and on-line, and sending regular email reminders to members.

The University believes there were circumstances beyond its control that substantially
hindered its compliance with the thirty day rule for the period in question. First, for the
2007-2008 Program year, the University documented and reported to the Corporation it
was unable to enroll members in WBRS, and it was determined by the Corporation there
was indeed a problem with the enrollment function in WBRS for the University's grants.
Also in the 2007-2008 Program year, the University needed to perform slot allotment
adjustments (which resulted in re-allocating the number of Fellows' slots between the
University and its partner schools) which further hindered the University's compliance
with the thirty day rule. For the 2008-09 Program year, the transition from WBRS to the
My AmeriCorps portal prevented the University from enrolling members for a two week
period that was critical to its exit process. The University had thirty days after June 30,
2009 to exit members; during this time WBRS was retired and My AmeriCorps was not
yet available for the first two weeks of July 2009. These events significantly hindered the
University's ability to process Fellows in a timely manner and be compliant in this area.
By the time the My AmeriCorps portal was available, the University had a considerable
backlog of Fellows who needed to be exited from the program; unfortunately the
University did not have sufficient resources to accomplish this within the substantially
shortened time frame which resulted from the preceding series of events.

Moving forward, the University will strictly enforce the thirty day rule. So that the
University can ensure full enrollment in the Program, the University plans to issue
additional commitments in order to make up for those perspective Fellows who do not
submit their enrollment paperwork in a timely fashion.

4b.
With the Program's new electronic timekeeping system (describe above in response to
Finding 3b.), the Fellows, along with their supervisors, are now required to sign and date
their timesheets.

4c.
Going forward the University will ensure Memorandums of Understanding are in place
for all partners, and the University will adhere to applicable records retention policies.




                                            7
                          APPENDIX B

Corporation for National and Community Service’s Response to Draft
                              Report
                               NATIONAL&:
                               COMMUNITY
                               SERVICE~



To:            Stuart Axenfeld, Inspector General for Audit
       t!fdtUll//)2t!7~
From: ~argaret Rosenberry, Director of Grants Management

Date:          March 4,2010

Subject:       Response to OIG Draft Agreed-Upon Procedures Report for Review of
               Corporation Grants Awarded to the University of San Francisco


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-URDn
Procedures report of the Corporation's grants awarded to the University of San Francisco (US F).
We will work with USF to ensure its corrective action plan adequately addresses and implements
the findings. We have yet to receive the audit working papers. Accordingly, we will respond
with the management decision after we have reviewed the audit working papers and the USF
corrective action plan.

Cc:     William Anderson, Acting Chief Financial Officer for Finance
        Frank Trinity, General Counsel
        Lois Nembhard, Acting Director of AmeriCorps National
        Bridgette Roy, Audit Resolution Coordinator
